fi

@OCKLE

2311 Douglas Street L ega l B rie f s E-Mail Address:

Omaha, Nebraska 68102-1214

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. -

JOHN WAYNE SCANTLEBURY, ALSO KNOWN AS
FREDERICK DAVIS, ALSO KNOWN AS JOHN WAYNE
TROTMAN; AND SEAN GASKIN,
Petitioners,

v.

UNITED STATES,

Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of October, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LAWRENCE J. JOSEPH
Counsel of Record
1250 Connecticut Ave. NW
Suite 700-1A
Washington, DC 20036
(202) 355-9452
j@larryjoseph.com

Counsel for Petitioners

Subscribed and swor to before me this 18th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
Stato of Nebraska : Le Qudraw- .
My Commission Expires Nov 24, 2020 .

Notary Public Affiant 38777

 

 
Scantlebury v. United States
Service List

Counsel for Respondent United States:

Hon. Noel J. Francisco

Solicitor General

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Email: SupremeCtBriefs@USDOJ.gov
Telephone: 202-514-2217
